Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Long Term Care Ombudsman Program:
         Complaint Trends




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 1999
                      OEI-02-98-00350
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee Dunn, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                               HEADQUARTERS

Demetra Arapakos, Project Leader                     Susan Burbach, Program Specialist

Vincent Greiber

Ellen Vinkey




   To obtain copies of this report, please call the New York Regional Office at 212/ 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                      EXECUTIVE SUMMARY

PURPOSE

        To examine trends in Ombudsman program complaints.

BACKGROUND

        While many studies indicate that changes in law and regulations may have had a positive
        effect on improving the environment and overall health care of nursing home patients,
        recent reports by the Health Care Financing Administration (HCFA) and the General
        Accounting Office have raised serious concerns about patients’ care and well-being The
        Senate Special Committee on Aging held hearings in the summer of 1998 on these results.
        Committee staff requested the Office of Inspector General (OIG) to examine the issue of
        nursing home quality of care. At the same time, we undertook additional studies aimed at
        assessing the quality of care in nursing homes. This report attempts to determine the
        extent and nature of quality of care problems by examining trends in ombudsman
        complaint data. Future OIG reports will address the trend in reported abuse of nursing
        home residents, the nursing home survey and certification process, and the availability of
        survey results.

        In response to growing concerns about poor quality care in nursing homes and to protect
        the interests of residents, the State Long Term Care Ombudsman program was established
        in 1978 in the Older Americans Act. Ombudsmen advocate on behalf of residents of long
        term care facilities to ensure that they have a strong voice in their own treatment and care.
        The program operates in all 50 States, the District of Columbia and Puerto Rico, and in
        hundreds of local communities, using both paid and volunteer staff. Beginning in 1995,
        the National Ombudsman Reporting System (NORS) has been used to report ombudsman
        data. Twenty-nine States provided complaint data in 1995, and all States did so for 1996.
        Prior to 1995, States used a different, pre-NORS, system that was less detailed and lacked
        common definitions.

        We examined complaint data in the 10 States with the largest nursing home population.
        We also conducted telephone interviews with State and local ombudsmen, and State Unit
        on Aging Directors.

FINDINGS

Nursing Home Complaints Have Been Steadily Increasing In The 10 Sample
States

        From 1989 to 1994, total complaints in the 10 sample States increased 44 percent overall,

                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        1                                    OEI-02-98-00350
        from 57,954 to 83,669. From 1996 to 1997, total complaints in the 10 States increased
        seven percent overall, from 60,926 to 65,123. (Due to the transition to a new reporting
        system in 1995, no comparable data are available for that year). We also calculated a
        complaint per bed ratio for each of the 10 States in 1996 and 1997. In 1996, the 10 State
        average was 65 complaints per 1,000 beds. This ratio increased to 69 complaints per
        1,000 beds in 1997.

        Beginning in 1996, all States reported complaint data using one of five main categories -
        resident care, resident rights, quality of life, administration, and not against facility. Of
        these 5 categories, resident care showed the biggest growth between 1996 and 1997,
        increasing by 13 percent. This category includes complaints about personal care (such as
        pressure sores and hygiene), lack of rehabilitation (such as mental health services) and the
        inappropriate use of restraints. Each of the remaining 4 categories increased less than 10
        percent.

        On a more specific level, the growth in certain complaints is particularly dramatic. Out of
        128 specific types, when we looked at those types with at least 100 reported complaints,
        we found that 12 complaints increased by at least 24 percent from 1996 to 1997. Two of
        the top 12 complaint types are related to nursing home staffing - staff turnover and lack of
        staff training. These staffing complaints could indicate problems with the care residents
        receive. Two examples of care problems which increased are hydration complaints, which
        grew 26 percent from 1996 to 1997, and complaints about weight loss due to inadequate
        nutrition, which increased 24 percent.

Complaints About Resident Care And Residents’ Rights, Which Include Some Of
The More Serious Complaints, Are Most Common In 1997

        In 1997, the majority of all complaints (63 percent) fell into 2 of the 5 categories -
        resident care (32 percent) and residents’ rights (31 percent). Resident care complaints
        include personal care, inappropriate use of restraints, and lack of rehabilitation. Examples
        of residents’ rights complaints include abuse and neglect, problems with admission and
        eviction, and the exercise of personal rights.

        More specifically, the 10 most frequently reported complaints in 1997 comprise one-third
        of all nursing home complaints for that year. Three of the top ten are related to
        insufficient nursing home staffing (unanswered call lights, dignity and respect/staff
        attitudes, and shortage of staff). All of these can result in poor care for residents. Specific
        examples of poor care, such as poor hygiene, physical abuse, and improper handling and
        accidents, are also among the top 10 complaints for 1997.

        Ombudsmen believe higher complaint rates do not always indicate more problems. Some
        ombudsmen point out that higher complaint rates could be due to a greater presence of
        ombudsman staff in nursing homes. However, when we compared each State’s staffing
        ratio and visitation rate to their complaint ratio, we found that States with more staff and
        more frequent visits do not necessarily have more complaints.

                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        2                                      OEI-02-98-00350
        Nevertheless, ombudsmen and State Aging Unit Directors confirm that problems continue
        to exist in some nursing homes. The problem they report most frequently is insufficient
        nursing home staff, and all stress that such insufficient staffing directly impacts the care
        residents receive. As an example of this impact, ombudsmen offer specific examples of
        how insufficient staffing can lead to other problems, such as failing to properly care for
        pressure sores and assist residents with eating so that they receive adequate nutrition.

        One-third or more of State and local ombudsmen also identify inadequate nutrition, bed
        sores, dehydration, and poor hygiene as big problems. A number additionally mention that
        residents are often not treated with dignity and respect. Finally, a few State Aging Unit
        Directors (three) and ombudsmen (two) say that physical abuse (intentional bodily harm)
        is also one of the biggest problems faced by residents in their State.

A Few Nursing Homes Are Chronically Substandard, According to Ombudsmen

        While ombudsmen generally agree that most nursing homes in their State provides good
        care, three-fourths say there are some homes that routinely treat residents poorly.
        Virtually all of the 8 State ombudsmen that offer an opinion report that 10 percent or
        fewer of the nursing homes in their State routinely provide poor care. Eight local
        ombudsman also estimate the number of chronically substandard homes in their locality.
        Two say 30 percent are chronic poor care providers, another 2 say between 10 and 20
        percent, and 3 report that less than 10 percent of the homes in their locality routinely
        provide poor care.

CONCLUSION

        Both the volume and nature of complaints reported to ombudsmen suggest that more must
        be done to improve nursing home care.

        In OIG companion reports on nursing home care we offer specific recommendations about
        improvements that can be made in both the Ombudsman program and in the survey and
        certification process.

AGENCY COMMENTS

        We received comments on the draft report from the Administration on Aging (AoA) and
        the Health Care Financing Administration (HCFA). Some parts of the report were
        modified in response to AoA’s technical comments.

        The full comments are presented in Appendix B.




                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        3                                    OEI-02-98-00350
                          TABLE OF CONTENTS


                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS

      Total Complaints Steadily Increasing in 10 States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         Complaints about Resident Care and Rights Most Common in 1997 . . . . . . . . . . . . . . . 13


         A Few Homes Chronically Substandard, According to Ombudsmen . . . . . . . . . . . . . . . 16


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES

    A: Complaints per 1,000 Beds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


         B: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





                                                       )))))))))))
LTC Ombudsman Program: Complaints Trends                    4                                                     OEI-02-98-00350
                                INTRODUCTION

PURPOSE

        To examine trends in Ombudsman program complaints.

BACKGROUND

        While many studies indicate that changes in law and regulations may have had a positive
        effect on improving the environment and overall health care of nursing home patients,
        recent reports by the Health Care Financing Administration (HCFA) and the General
        Accounting Office have raised serious concerns about patients’ care and well-being. The
        Senate Special Committee on Aging held hearings in the summer of 1998 on these results.
        Committee staff requested the Office of Inspector General (OIG) to examine the issue of
        nursing home quality of care. At the same time, we undertook additional studies aimed at
        assessing the quality of care in nursing homes. This report attempts to determine the
        extent and nature of quality of care problems by examining trends in ombudsman
        complaint data. Future OIG reports will address the trend in reported abuse of nursing
        home residents, the nursing home survey and certification process, and the availability of
        survey results.

        In 1987, Congress passed major nursing home reform legislation with the Omnibus
        Reconciliation Act of 1987 (OBRA 1987). This legislation required nursing homes with
        Medicare and Medicaid residents to comply with specific quality of care standards by
        providing “services and activities to attain or maintain the highest practicable physical,
        mental, and psychosocial well-being of each resident.” Now more than a decade later,
        concerns still exist about the quality of care provided in nursing homes.

Ombudsman Program

        A nursing home is a long term care residential facility for individuals with physical or
        mental impairments that prevent them from living independently. A nursing home
        provides its residents with a room, meals, assistance with daily living, and, in most cases,
        some medical care. According to data provided in State ombudsman reports, in 1996
        there were 18,066 nursing homes and 1,845,791 nursing home beds. Medicaid payments
        to nursing homes totaled $29.6 billion, while Medicare payments totaled $10.6 billion.

        In response to growing concerns about poor quality care in nursing homes and to protect
        the interests of residents, the State Long Term Care Ombudsman program was
        established in 1978 in the Older Americans Act. The ombudsmen advocate on behalf of
        residents of long term care facilities to ensure they have a strong voice in their own
        treatment and care.


                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        5                                     OEI-02-98-00350
        The Ombudsman Program operates in all fifty States, the District of Columbia and Puerto
        Rico, and in hundreds of local communities and uses both paid and volunteer staff. The
        program receives funding from Federal, State and local levels, and is overseen by the
        Administration on Aging (AoA). Most State ombudsmen operate within the State Units
        on Aging (SUA), some of which are independent and others of which are part of a larger
        State umbrella agency. The remaining State Ombudsman programs are located
        organizationally outside of the SUA. These programs are operated by non-profit
        organizations or legal services agencies, or they are freestanding Ombudsman programs.

        State Ombudsman programs have multiple functions which are mandated by law, many of
        which are closely tied to ensuring quality care for long term care residents. They include:

        C	       identifying, investigating, and resolving complaints made on behalf of long term
                 care residents;
        C        protecting the legal rights of patients;
        C        advocating for systemic change;
        C        providing information and consultation to residents and their families, and;
        C        publicizing issues of importance to residents.

        Several national associations have been established to support State Ombudsman
        programs. One of these, the National Long Term Care Ombudsman Resource Center,
        was established by law in 1993. This center is funded by AoA and run by the National
        Citizens’ Coalition for Nursing Home Reform (NCCNHR) in cooperation with the
        National Association of State Units on Aging (NASUA) and serves as a clearinghouse for
        information on the national Ombudsman program. One of its functions is to identify issues
        of significance to the Ombudsman program, including identifying ways the ombudsman
        can improve quality of care in nursing homes; it also trains ombudsmen and provides
        technical assistance. Additionally, the National Association for Long Term Care
        Ombudsman Programs (NASOP) was established by State ombudsmen to provide a
        common voice for all State programs and promote the sharing of ideas and experience
        among ombudsman staff.

Ombudsman Complaint Data

        States have recently started to collect and report standardized data. In FY 1995, States
        began to systematically collect and report data under the National Ombudsman Reporting
        System (NORS). Prior to NORS, States reported data to AoA which was of limited use
        due to the lack of common definitions for key data elements. The NORS was created in
        response to earlier recommendations made by the General Accounting Office and the
        Office of Inspector General and was developed by the ombudsmen themselves. It includes
        more specific data elements than were previously reported. For example, it separates
        complaints by type and distinguishes between complaints and complainants. In 1995, 29
        States reported under NORS, and all States did so annually in 1996.

        Also for 1995, the first Long Term Care Ombudsman Program Annual Report was


                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        6                                    OEI-02-98-00350
        published. This report utilizes NORS case and complaint data for 29 programs and pre-
        NORS data for the other 23 programs, and describes both the experiences of long term
        care residents and the operation of ombudsman programs nationwide. The report also
        describes the broad range of ombudsman activities, including training and technical
        assistance programs, visitations, and community outreach.

Prior Studies

        Many studies have reported on the progress and impact of the Ombudsman program. One
        of the most recent, “Real People, Real Problems,” published in 1995 by the National
        Academy of Sciences’ Institute of Medicine, reported on State compliance, conflicts of
        interest, effectiveness, resources, and the need for future expansion of the program. It
        found that, overall, the Ombudsman program is effective. It also reported lack of access
        to ombudsman services by residents and their families, disparities in ombudsman visitation
        patterns and service provisions, and uneven availability of ombudsman legal services.

        Additionally, the Inspector General issued several reports on the Ombudsman program in
        1991 and 1992. First, “Successful Ombudsman Programs,” (OEI-02-90-02120), the main
        report in a series, found that successful programs are highly visible and obtain adequate
        funding and support. Furthermore, “State Implementation of the Ombudsman
        Requirements of the Older Americans Act,” (OEI-02-91-01516), found, among other
        things, that State program staffing and long term care facility visitation rates vary
        significantly. It also found that ombudsmen use many methods to increase their visibility.

        In July 1998, the Secretary of the Department of Health and Human Services released a
        report to Congress on nursing home care. While the report found that some progress had
        been made in nursing home care, particularly in the more appropriate use of physical
        restraints and drugs, it also indicated that further improvements were needed. In
        conjunction with this report, the President announced a new nursing home initiative to
        provide enhanced protection to residents and target needed improvements in care.

        Also in July, 1998, the General Accounting Office (GAO) released a report on California
        nursing homes. This report found that care problems still exist, despite Federal and State
        oversight. Among the problems it describes are poor nutrition, dehydration, and pressure
        sores.

METHODOLOGY

        We used two methods for this inspection. First, we analyzed data from Ombudsman
        program reporting systems to determine complaint trends. Second, we conducted
        telephone interviews with State and local ombudsmen, as well as State Units on Aging
        Directors to obtain their perspective on nursing home quality of care problems.




                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        7                                   OEI-02-98-00350
Sample Selection

        We selected a purposive sample of 10 States for this data inspection. These States are
        New York, California, Texas, Ohio, Illinois, Pennsylvania, Massachusetts, Florida, New
        Jersey, and Tennessee. They represent 55.8 percent of the total skilled nursing beds and 53
        percent of all Ombudsman program complaints nationally for 1996. They also account for
        nearly half (43 percent) of all State and local ombudsman programs nationwide and half
        of all program funding.

Ombudsman Data Analysis

        We analyzed two sets of data for this inspection. For 1996 and 1997, we analyzed data
        from the National Ombudsman Reporting System (NORS). For 1989 to 1994, we
        examined data from the pre-NORS reporting system. Most of our analysis is of NORS
        data, since it is both more recent and more comprehensive.

        In reporting our findings, we discuss several different data elements. For pre-NORS data,
        we present figures for both total complaints and seven broad complaint categories. For
        NORS data, we examine three levels of complaints. First, we look at total complaints.
        Second, we look at the following five complaint categories:

        C        Residents Rights (abuse, neglect, admission, personal rights, and property);
        C        Resident Care (care, rehabilitation or maintenance of function, and restraints);
        C        Quality of Life (activities, social services, dietary, and environment);
        C        Administration, (policies and procedures, attitudes, and staffing); and
        C	       Complaints Not Against Facility (certification and licensing, State Medicaid
                 Agency, and long term care system).

        Third, we looked at 125 specific complaint types. We also report ratios for the number of
        complaints per 1,000 skilled nursing home beds in each State.

Limitations of Data Analysis

        During our analysis, it became evident that NORS and pre-NORS data are not comparable
        for several reasons. First, pre-NORS and NORS data do not count complaints in the same
        way. Second, despite having some similar complaint categories, the individual data
        elements comprising those categories differ between pre-NORS and NORS. Because of
        these differences between the two data sets, we were not able to combine them in our
        analysis. We therefore present data from each of the two data sets separately. We will
        refer to the former as “pre- NORS data” and the latter as “NORS data.”

        A final factor limiting our analysis is the lack of comparable data in 1995. Due to the
        transition to the new NORS system in this year, only 29 States reported NORS data.
        Since only 5 of our 10 sample States reported NORS data for 1995, resulting in
        incomparable data, we do not report findings for that year.

                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        8                                     OEI-02-98-00350
Telephone Interviews

        We conducted a total of 30 structured interviews for this inspection. In each of the 10
        States, we spoke with the State ombudsman, one local program ombudsman, and the
        Director of the State Unit on Aging (except for one State, where we interviewed the
        Deputy Director). We selected these three groups of respondents to obtain their different
        perspectives of the program.

        In selecting ombudsmen from local programs to interview, we selected individuals from a
        variety of local programs. Five of the local programs represented are operated by Area
        Agencies on Aging (AAAs), while the other five are operated by non-profit or legal
        service agencies. Furthermore, five of the local programs are rural and five are urban.

        During our interviews, we asked respondents about the problems faced by nursing home
        residents in their State. We also discussed chronically substandard nursing homes.

        This inspection was conducted in accordance with the Quality Standards for
        Inspections issued by the President’s Council on Integrity and Efficiency.




                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        9                                  OEI-02-98-00350
                                           FINDINGS

Nursing home complaints have been steadily increasing in
the 10 sample States
From 1989 to 1994, total complaints increased 44 percent

        Based on pre-NORS data from 1989 to 1994, complaints in the 10 sample States have
        been increasing gradually. As shown in Graph A below, total complaints in these States
        grew from 57,954 to 83,669, an increase of 44 percent. (Due to the transition to a new
        data system in 1995, we do not have comparable complaint rates for that year).

                                             Graph A
                            Total Nursing Home Complaints, 1989 to 1994




        Some differences among the 10 States in this time period are particularly noteworthy.
        Overall, complaints in Florida and Ohio decreased, 19 percent and 15 percent,
        respectively. Complaints in Texas, Tennessee and Massachusetts, on the other hand,
        increased more than 100 percent during that time period (189, 123, and 108 percent
        respectively).

Complaints about residents’ rights, nutrition and food, and resident care
increased at a rate higher than the overall rate during this time period

        From 1989 to 1994, complaints were categorized into one of nine different categories.
        Some of these categories increased at an even higher rate than the overall increase. The

                                            )))))))))))
LTC Ombudsman Program: Complaints Trends         10                                OEI-02-98-00350
        largest growth was in administrative complaints, which increased 188 percent. Resident
        rights complaints in the 10 States increased 125 percent during these years, followed by
        complaints about food and nutrition (89 percent) and resident care (72 percent).

From 1996 to 1997, total complaints increased seven percent

        Data from NORS for 1996 and 1997 also show an increase in total complaints in the 10
        sample States. Graph B below shows that complaints increased seven percent during this
        time period, going from 60,926 up to 65,123. This is similar to the yearly rate from 1989
        to 1994.

                                             Graph B
                            Total Nursing Home Complaints, 1996 to 1997

                                   100000


                                    80000

                                                                65123
                                                 60926
                                    60000


                                    40000


                                    20000


                                           0
                                                1996            1997
                                                         YEAR



        Total complaints increased the most dramatically during these 2 years in Florida (25
        percent) and in Pennsylvania (19 percent.) Another 5 States (California, Illinois, New
        York, Ohio and Texas) saw increases of 10 percent or less. Complaints decreased slightly
        in New Jersey, Massachusetts, and Tennessee.

        To examine the volume of complaints ombudsmen receive in relation to the number of
        nursing homes they serve, we calculated a complaint ratio for each of the 10 States (see
        Appendix A). In 1996, these ratios range from 187 complaints per 1,000 beds in
        Massachusetts, to 31 complaints per 1,000 beds in Ohio; the 10 State average was 65. In
        1997, Massachusetts still topped the list with 180 and Ohio was still lowest with 31. The
        average ratio for this year increased to 69 complaints per 1,000 beds.

Resident care complaints had the largest overall growth from 1996 to 1997

        Beginning in 1996, all States reported complaint data using one of five main categories -
        resident care, resident rights, quality of life, administration, and not against facility. The
        category with the largest growth from 1996 to 1997 is resident care, which increased 13


                                               )))))))))))
LTC Ombudsman Program: Complaints Trends            11                                  OEI-02-98-00350
        percent. This category includes specific complaints about personal care (such as pressure
        sores and hygiene), lack of rehabilitation (such as mental health services), and the
        inappropriate use of restraints. Quality of life, administration and resident rights
        complaints each increased less than 10 percent from 1996 to 1997.

Twelve specific complaints each increased at least 24 percent between these 2
years, including complaints about hydration, inadequate nutrition, and nursing
home staff

        On a more specific level, the growth in certain complaints is particularly dramatic. Out of
        128 specific types, when we looked at those with at least 100 reported complaints, we
        found that 12 had increases of 24 percent or more from 1996 to 1997. These 12
        complaints are shown in Table 1 below. Two of the top 12 complaints are related to
        nursing home staffing - staff turnover and lack of staff training. These staffing complaints
        could indicate problems with the care residents receive.

                                              Table 1
                         Top 12 Increases in Complaints From 1996 to 1997

             Complaint Type                         Number,        Number,            % Increase,
                                                     1996           1997              1996 - 1997
         1. Info. re advance directive*               178            458                 157%
         2. Denial of eligibility                     188            292                  55%
         3. Staff turn-over, overuse of
              nursing pools                            107            159                  49%
         4. Psychoactive drugs-assessment,
              use, evaluation                          122            176                  44%
         5. Other: activities & social svcs**          194            262                  35%
         6. Vision and hearing                         174            226                  30%
         7. Administrator(s) unresponsive,
              unavailable                              242            308                  27%
         8. Symptoms unattended, no notice
              to others of change in condition        1,193          1,507                 26%
         9. Staff training, lack of screening          374            471                  26%
         10 Fluid availability /hydration              459            576                  26%
          .
         11 Furnishing/storage                         338            421                  25%
            .
         12 Weight loss due to inadequate              216            267                  24%
            . nutrition
         * Failure to notify resident in advance of changes in nursing home policy or procedure.
         **Miscellaneous complaints about resident activities and social services.           Source: NORS data



                                              )))))))))))
LTC Ombudsman Program: Complaints Trends           12                                        OEI-02-98-00350
                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        13       OEI-02-98-00350
Complaints about resident care and residents’ rights, which
include some of the more serious complaints, are most
common in 1997
Resident care and residents’ rights complaints comprise more than half of all
complaints in 1997

        In 1997, ombudsmen in the 10 sample States received just over 65,000 nursing home
        complaints. All of these complaints were classified into one of five categories. The
        majority of these complaints (63 percent) fell into 2 of the 5 categories - resident care (32
        percent) and residents’ rights (31 percent), as shown in Chart A below. Resident care
        complaints include personal care, restraints, and rehabilitation. Residents’ rights
        complaints include abuse and neglect, admission and eviction, and personal rights.

                                             Chart A
                              Breakdown of Complaint Categories, 1997




        States vary in how their complaints are concentrated. While residents rights’ complaints
        comprise 31 percent of the total in the 10 States overall, in three States (NJ, CA and OH)
        they represent 40 percent or more. Furthermore, in two States (MA and TX) quality of
        life complaints make up one-third of all their complaints, which is higher than the 10 State
        average of 21 percent.

In 1997, the 10 most common types of complaints account for one-third of all
complaints; the 3 relating to insufficient nursing home staffing impact on resident
care

        The 10 most frequently reported types of complaint comprise one-third of total nursing
        home complaints in 1997. Table 2 below shows what these 10 complaints are. Three of

                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        14                                    OEI-02-98-00350
        the 10 relate to insufficient nursing home staffing (unanswered call lights, dignity and
        respect/staff attitudes, and shortage of staff). All of these can result in poor care for
        residents. Specific examples of poor care, such as poor hygiene, physical abuse, and
        improper handling and accidents, are also among the top 10 complaints for 1997.

                                               Table 2
                                     Top 10 Complaints Types, 1997

                        Complaint Types             Number          % of Total
                                                                    Complaints
            1. Call lights, requests for              3,235            5%
                assistance
            2. Personal hygiene                       2,515              4%
            3. Dignity, respect-staff attitudes       2,039              3%
            4. Accidents, improper handling           2,011              3%
            5. Discharge/eviction-planning,           1,906              3%
                notice, procedure
            6. Menu-quantity, quality,                1,865              3%
                variation, choice
            7. Personal property lost, stolen,        1,789              3%
                used by others, destroyed
            8. Physical abuse                         1,757              3%
            9. Shortage of staff                      1,715              3%
            10. Medications-administration,           1,595              2%
                organization

                              TOTAL                  20,427             31%
                                                               Source: NORS data

Ombudsmen and State Aging Unit Directors confirm that problems continue to
exist in some nursing homes

        Ombudsmen believe higher complaint rates do not always indicate more problems. As
        discussed in our companion report on program capacity, some ombudsmen point out that
        higher complaint rates could be due to a greater presence of ombudsman staff in nursing
        homes; with more visits, they provide residents with more opportunities to register
        complaints. However, when we compared each State’s staffing ratio and visitation rate to
        their complaint ratio, we found that States with more staff and more frequent visits do not
        necessarily have more complaints.

        Nevertheless, in all States, State and local ombudsmen, as well as State Aging Unit
        Directors, identify problems in nursing homes that compromise the quality of care
        residents are receiving. In fact, a few of their written program procedures specify the


                                            )))))))))))
LTC Ombudsman Program: Complaints Trends         15                                    OEI-02-98-00350
        kinds of problems ombudsman staff should look for when visiting nursing homes. Many
        of the problems ombudsmen identify are the same problems indicated by data in the
        National Ombudsman Reporting System. In fact, ombudsmen generally rate this system
        high for accuracy, usefulness, and comprehensiveness.

Insufficient nursing home staffing is the biggest problem ombudsmen see

        The problem ombudsmen say they see most frequently in nursing homes is insufficient
        nursing home staff; seven State ombudsmen and eight local ombudsmen believe that many
        nursing homes do not have enough staff to provide quality care. Similarly, four State
        Aging Unit directors also suggest that inadequate nursing home staffing is a major
        problem. For example, six State ombudsmen believe unanswered call lights is one of the
        biggest problems nursing home residents face. As already shown, unanswered call lights/
        requests for assistance is the most common nursing home complaint in 1997.

        Ombudsmen and State Aging Unit directors stress the importance of having sufficient
        nursing home staff because it directly impacts the quality of care provided to residents.
        As an example of this impact, ombudsmen offer specific examples of how insufficient
        staffing can lead to other problems, such as failing to properly care for pressure sores and
        assist residents with eating so that they receive adequate nutrition.

        Ombudsmen offer other examples of how inadequate staffing impacts nursing home care.
        One gives the example of a home where residents were left to sit in their urine and feces
        for extended periods of time before being cleaned because of insufficient staff. Another
        says that in one home with a lack of staff, in the afternoon residents were often still in their
        nightgowns and in a disheveled state. In addition to insufficient staffing, some
        ombudsmen say nursing homes often experience high staff turnover and others report that
        many staff are not qualified or sufficiently trained.

Nutrition and other types of personal care problems are also noticed

        Malnutrition and other dietary concerns are also volunteered by four State and seven local
        ombudsmen as some of the biggest problems nursing home residents face in their State.
        One says some homes do not provide residents with adequate nutrition, while another
        speaks of homes that generally do not provide enough food. Some ombudsmen speak of
        nursing homes that do not allow their residents enough time to eat and do not assist
        residents with eating who need such help.

        State and local ombudsmen, as well as State Aging Unit Directors, report other types of
        personal care problems nursing home residents face in their State. These include bed
        sores, dehydration, poor hygiene, over-medication, and toileting. Furthermore, a number
        of ombudsmen specifically mention that nursing home residents are not treated with
        dignity and respect, with one saying that nursing home residents are treated as “objects.”
        Complaints about personal hygiene and lack of dignity and respect are the second and
        third most frequently reported complaints for 1997.

                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        16                                      OEI-02-98-00350
Physical abuse is cited by a few ombudsmen and State Aging Unit directors

        Three State Unit on Aging Directors and two ombudsmen volunteer that physical abuse is
        one of the most significant problems faced by nursing home residents in their States. In
        fact, physical abuse is one of the top 10 most frequently reported complaints in 1997,
        comprising 3 percent of all complaints for that year. In discussing physical abuse, some
        ombudsmen generally make a distinction between abuse caused by intentional bodily harm
        and gross neglect due to inadequate staffing. Says one, while “the number of cases which
        we hear about that curdle your blood is relatively small, such cases do happen enough [to
        warrant the public’s attention.]”

A few nursing homes are chronically substandard, according
to ombudsmen
Ombudsmen report that some nursing homes routinely provide poor care

        While ombudsmen generally agree that most nursing homes in their State provide good
        care, three-fourths say there are some homes that routinely treat residents poorly. Of the
        8 State ombudsmen that offer an opinion, 7 report that 10 percent or fewer of the nursing
        homes in their State routinely provide poor quality of care. The remaining State
        ombudsman says it is many as 30 percent. Local ombudsmen cite higher percentages of
        homes that provide poor quality of care. Of the eight that offer an opinion, two say 30
        percent are chronic poor care providers, another 2 say between 10 and 20 percent, and 3
        report that less than 10 percent of the homes in their locality routinely provide poor care.
        The remaining local ombudsman says no nursing home in his locality provides poor care.
        Several State and local ombudsmen identify certain types of nursing homes that are more
        likely to provide poor care than others. Several mention that nursing homes in urban
        communities more likely to have serious problems than those in rural communities,
        because the latter are smaller, and the nursing home staff and residents are more likely to
        have personal relationships. Two other ombudsmen believe nursing homes that serve
        lower-income populations are more likely to provide poor care.




                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        17                                   OEI-02-98-00350
                                   CONCLUSION

        Both the volume and nature of complaints reported to ombudsmen suggest that more must
        be done to improve nursing home care.

        In OIG companion reports on nursing home care we offer specific recommendations about
        improvements that can be made in both the ombudsman program and in the survey and
        certification process.

COMMENTS

        We received comments on the draft report from the Administration on Aging (AoA) and
        the Health Care Financing Administration (HCFA). Some parts of the report were
        modified in response to AoA’s technical comments.

        The full comments are presented in Appendix B.




                                           )))))))))))
LTC Ombudsman Program: Complaints Trends       A-1                            OEI-02-98-00350
                                      APPENDIX A


                              Complaints Per 1,000 Beds, 1996 and 1997

             State          Complaints per          Complaints per        %Increase or
                           1,000 Beds: 1996        1,000 Beds: 1997*       Decrease
              MA                   187                   180                  -3.7%
              CA                   126                   132                   4.8%
              TX                    69                    75                   8.0%
              FL                    47                    63                   34%
              NY                    42                    48                   14%
              PA                    38                    48                   26%
              NJ                    45                    44                  -2.2%
               IL                   38                    43                   13%
              TN                    35                    34                  -2.9%
              OH                    30                    31                   3.3%
     * Nursing home bed figures on based on 1996 data                  Source: NORS data




                                             )))))))))))
LTC Ombudsman Program: Complaints Trends          18                                  OEI-02-98-00350
                                      APPENDIX B

        In this appendix, we present in full the comments from the Administration on Aging and
        the Health Care Financing Administration.




                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        19                               OEI-02-98-00350
                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        20       OEI-02-98-00350
                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        21       OEI-02-98-00350
                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        22       OEI-02-98-00350
                                           )))))))))))
LTC Ombudsman Program: Complaints Trends        23       OEI-02-98-00350
